                     AUDIT REPORT

        Audit of NRC’s Oversight of Active Component Aging

                    OIG-14-A-02 –October 28, 2013




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                    October 28, 2013



MEMORANDUM TO:              Mark A. Satorius
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S OVERSIGHT OF ACTIVE COMPONENT
                            AGING (OIG-14-A-02)


Attached is the Office of the Inspector General’s (OIG) audit report titled Audit of NRC’s
Oversight of Active Component Aging.

The report presents the results of the subject audit. The agency provided comments to
the report on September 27, 2013. The agency’s comments have been incorporated
into the report at Appendix B.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or R.K. Wild, Team Leader, Nuclear Reactor Safety Audits Team,
at 415-5948.

Attachment: As stated
                                  Audit of NRC’s Oversight of Active Component Aging


EXECUTIVE SUMMARY

 BACKGROUND

   The Atomic Energy Act and Nuclear Regulatory Commission (NRC)
   regulations limit commercial nuclear power reactor licenses to an initial 40
   years. Due to this selected period, some components may have been
   engineered on the basis of an expected 40-year service life. Components
   degraded due to aging have caused reactor shutdowns, failure of safety-
   related equipment, and reduction in the safety margin of operating nuclear
   power plants. Therefore, effective and proactive management of aging of
   components is a key element for safe and reliable nuclear power plant
   operation.

   NRC has established commercial nuclear power reactor industry
   requirements that exclude some components—referred to as active
   components—from a license renewal aging management review. Active
   components are those that perform their intended functions with moving
   parts or a change in state. Examples of active components include power
   supplies, motors, diesel generators, cooling fans, batteries, relays, and
   switches. According to NRC, active components are not subject to review
   as part of NRC’s review of license renewal applications because of the
   existing regulatory process and existing licensee programs and activities.

   The NRC Office of Nuclear Reactor Regulation and the regional offices
   provide regulatory oversight of industry’s active component aging
   activities. NRC addresses aging active component issues through a
   number of different regulations and guidance, to include Title 10 Code of
   Federal Regulations (CFR), Part 50.65, Requirements for monitoring the
   effectiveness of maintenance at nuclear power plants (the Maintenance
   Rule, as amended), 10 CFR Part 50, Appendix B, Quality Assurance
   Criteria for Nuclear Power Plants and Fuel Reprocessing Plants, and
   10 CFR 50.36, Technical specifications.




                                  i
                                     Audit of NRC’s Oversight of Active Component Aging


OBJECTIVE

      The objective of this audit was to determine if NRC is providing effective
      oversight of industry’s aging component programs.

RESULTS IN BRIEF

   Oversight of Active Component Aging Could Be Improved

      Oversight of licensees’ activities, including active component aging,
      should be structured and coordinated. However, NRC’s approach for
      oversight of licensees’ management of active component aging is not
      focused or coordinated. This has occurred because NRC has not
      conducted a systematic evaluation of program needs for overseeing
      licensees’ aging management for active components since the
      establishment of the Reactor Oversight Process (ROP) in 2000, and does
      not have mechanisms for systematic and continual monitoring, collecting,
      and trending of age-related data for active components. Consequently,
      NRC cannot be fully assured that it is effectively overseeing licensees’
      management of aging active components.

RECOMMENDATIONS

      This report makes two recommendations to improve the agency’s
      oversight of aging active component activities.

AGENCY COMMENTS

      During an August 20, 2013, exit conference and an August 26, 2013, staff
      meeting, agency provided informal comments, which OIG subsequently
      incorporated into the draft report as appropriate.

      On September 27, 2013, NRC provided formal comments to the draft
      report. The agency’s stated that its oversight of active component aging
      issues is being effectively dealt with under existing oversight procedures,
      and that its existing ROP provides the framework for ensuring that aging
      issues with the potential to impact safety are addressed in a timely
      manner.

      OIG’s central message is that because the agency uses regulations and
      inspections procedures for oversight of aging issues that predate the 2000

                                    ii
                               Audit of NRC’s Oversight of Active Component Aging


implementation of ROP and has not since evaluated whether this
regulations and procedures still function as intended, the agency is not
able to determine the effectiveness of aging component oversight.

Appendix A contains the audit Objective, Scope, and Methodology;
Appendix B contains a copy of the agency’s formal comments; and
Appendix C contains OIG’s analysis of the agency’s formal comments.




                              iii
                               Audit of NRC’s Oversight of Active Component Aging


ABBREVIATIONS AND ACRONYMS

       CFR     Code of Federal Regulations

       IOEB    Operating Experience Branch

       INL     Idaho National Laboratory

       NRC     Nuclear Regulatory Commission

       NRR     Office of Nuclear Reactor Regulation

       OIG     Office of the Inspector General

       ROP     Reactor Oversight Process




                               iv
                                                   Audit of NRC’s Oversight of Active Component Aging


TABLE OF CONTENTS



         EXECUTIVE SUMMARY ........................................................................... i

         ABBREVIATIONS AND ACRONYMS ....................................................... iv

            I.   BACKGROUND ............................................................................. 1

           II.   OBJECTIVE ................................................................................... 4

          III.   FINDING ........................................................................................ 4
                    Oversight of Active Component Aging
                    Could Be Improved ................................................................... 4

                       Recommendations ................................................................. 15

          IV.    AGENCY COMMENTS ................................................................. 16



    APPENDICES

      A. OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 17

      B. AGENCY FORMAL COMMENTS ........................................................... 19

      C. OIG ANALYSIS OF AGENCY FORMAL COMMENTS ........................... 22




                                                  v
                                                          Audit of NRC’s Oversight of Active Component Aging


I.      BACKGROUND



                 The Atomic Energy Act and Nuclear Regulatory Commission (NRC)
                 regulations limit commercial nuclear power reactor licenses to an initial 40
                 years. Due to this selected period, some components may have been
                 engineered on the basis of an expected 40-year service life. However,
                 components that have aged during the 40-year period can have impacts
                 on both the safety and the performance of nuclear power plants.
                 Components degraded due to aging have caused reactor shutdowns,
                 failure of safety-related equipment, and reduction in the safety margin of
                 operating nuclear power plants. Therefore, effective and proactive
                 management of aging of components is a key element for safe and
                 reliable nuclear power plant operation.

                 Aging is defined as a general process in which characteristics of
                 components 1 gradually change with time or use. Some examples of aging
                 mechanisms include wear, fatigue, erosion, microbiological fouling,
                 embrittlement, and chemical or biological reactions, or combinations of
                 these processes. Proactive aging management means management of
                 the aging of components that is implemented with foresight and
                 anticipation throughout the component’s lifetime. 2

                 NRC has established commercial nuclear power reactor industry
                 requirements that exclude some components—referred to as active
                 components—from a license renewal aging management review. 3 Active
                 components are those that perform their intended functions with moving
                 parts or a change in state. Examples of active components include power
                 supplies, motors, diesel generators, cooling fans, batteries, relays, and
                 switches. According to NRC, active components are not subject to review
                 as part of NRC’s review of license renewal applications because of the
                 existing regulatory process and existing licensee programs and activities.

1
  For the purposes of this report, the Office of the Inspector General (OIG) uses the term components in place of
safety-related structures, systems, and components.
2
  Proactive Management of Ageing for Nuclear Power Plants, International Atomic Energy Agency, Vienna, 2009.
3
  Commercial power reactor licenses can and have been renewed beyond 40 years. As part of license renewal,
plants undergo an aging management review by the NRC that includes passive components. Passive components
are components that perform an intended function (as described in Title 10 Code of Federal Regulations (CFR) Part
54.4) without moving parts or without a change in configuration or properties and include the reactor vessel, steam
generators, and ventilation ducts.

                                                         1
                                           Audit of NRC’s Oversight of Active Component Aging


Oversight Responsibility for Active Component Aging Activities

            The NRC Office of Nuclear Reactor Regulation (NRR) and the regional
            offices provide regulatory oversight of industry’s active component aging
            activities. Agency officials stated that NRC oversight of reactor licensees
            is conducted within the Reactor Oversight Process (ROP) framework. The
            ROP is the agency’s program to inspect, measure, and assess the safety
            performance of commercial nuclear power plants and to respond to any
            decline in performance. OIG auditors did not review the entire ROP
            framework. OIG focused on NRC’s active component aging-related
            oversight activities both within and outside the ROP framework.

            Primarily, two branches in the NRR Division of Inspections and Regional
            Support—as well as the Divisions of Reactor Projects in NRC regional
            offices—have responsibility for regulatory oversight of licensee programs,
            which would include licensee management of active component aging.
            Within NRR, Reactor Inspection Branch responsibilities include providing
            programmatic leadership and support for activities associated with
            inspecting and assessing licensee performance at commercial nuclear
            power plants. This includes providing the necessary infrastructure for the
            inspection program in coordination with the regional offices, and
            supporting enhanced inspection teams and the ROP. The Operating
            Experience Branch (IOEB) collects, evaluates, and communicates
            information that may have caused domestic and international reactor
            events and provides lessons learned from those events to headquarters,
            the regions, and licensees. While not responsible for oversight, the Office
            of Nuclear Regulatory Research provides support that includes technical
            advice, technical tools, and information for identifying and resolving safety
            issues, including for aging phenomena.

      Regulations Applicable to Active Component Aging Oversight

            No Federal law or regulation that pertains to NRC specifically provides for
            the oversight of aging active components. However, NRC inspectors have
            used the following regulations to support a basis for age-related inspection
            findings and violations:

                   •   10 CFR Part 50.65, Requirements for monitoring the
                       effectiveness of maintenance at nuclear power plants (the
                       Maintenance Rule, as amended) was issued on July 10, 1991.


                                           2
                               Audit of NRC’s Oversight of Active Component Aging


           The Maintenance Rule requires, in part, that licensees:

              ...shall monitor the performance or condition
              of structures, systems, or components,
              against licensee-established goals, in a
              manner sufficient to provide reasonable
              assurance that these structures, systems,
              and components […] are capable of fulfilling
              their intended functions. These goals shall
              be established commensurate with safety
              and, where practical, take into account
              industry-wide operating experience. […]
              Monitoring […] is not required where it has
              been demonstrated that the performance or
              condition of a structure, system, or
              component is being effectively controlled
              through the performance of appropriate
              preventive maintenance… .

       •   10 CFR Part 50, Appendix B, Quality Assurance Criteria for
           Nuclear Power Plants and Fuel Reprocessing Plants (10 CFR
           Part 50, Appendix B), requires licensees to maintain a quality
           assurance program for the design, fabrication, construction, and
           testing of the structures, systems, and components of the
           facility.

       •   10 CFR Part 50.36, Technical specifications, requires licensees
           to maintain administrative controls, including procedures for
           maintenance, to assure operation of the facility in a safe
           manner. Inspectors sometimes cite licensees for inadequate
           procedures that led to age-related degradation under this
           regulation.

Additionally, there are ROP and other inspection procedures, as well as
industry operating experience that offer NRC inspectors and staff flexibility
when used for active component aging oversight. Some, but not all,
relevant inspection procedures, reports, and studies are listed in Appendix
A of this report.


                               3
                                           Audit of NRC’s Oversight of Active Component Aging


II.    OBJECTIVE
            The objective of this audit was to determine if NRC is providing effective
            oversight of industry’s aging component programs.

            Appendix A of this report contains information on the audit scope and
            methodology.



III.   FINDING

       OVERSIGHT OF ACTIVE COMPONENT AGING COULD BE IMPROVED

            Oversight of licensees’ activities, including active component aging,
            should be structured and coordinated. However, NRC’s approach for
            oversight of licensees’ management of active component aging is not
            focused or coordinated. This has occurred because NRC has not
            conducted a systematic evaluation of program needs for overseeing
            licensees’ aging management for active components since the
            establishment of ROP in 2000, and does not have mechanisms for
            systematic and continual monitoring, collecting, and trending of age-
            related data for active components. Consequently, NRC cannot be fully
            assured that it is effectively overseeing licensees’ management of aging
            active components.

            Structured Oversight

            Oversight of licensee’s activities should be structured, coordinated, and
            based on the best available knowledge from research and operational
            experience. Commonly accepted, formal approaches to planning of
            Government programs include establishing an overall strategy and goals,
            establishing methodologies for setting priorities, identifying program-
            specific performance metrics, and managing resources. Additionally, NRC
            Principles of Good Regulation require that NRC manages and administers
            its regulatory activities cooperatively and efficiently, that regulatory
            decisions should be made without undue delay, and that regulations
            should be based on the best available knowledge from research and
            operational experience.



                                          4
                                Audit of NRC’s Oversight of Active Component Aging


Furthermore, current and former NRC Commissioners, senior
management officials, and managers have expectations that the agency is
providing effective oversight of industry’s active component aging
programs and have repeatedly emphasized the importance of aging
oversight. During the 2013 NRC Regulatory Information Conference, the
current NRC Chairman noted that despite an established rigorous
program for aging management, NRC and industry must be prepared to
contend with unknowns. Former NRC Commissioners, senior
management officials, and managers have also expressed the importance
of strong aging management programs, including those for active
components, and one senior manager stated that NRC currently has
programs in place to monitor aging of active components. Agency
managers have also emphasized the importance of oversight for active
component aging activities. However, current and former managers
having expectations for effective oversight of industry’s aging plants
generally did not make a distinction between active components and those
passive components covered by license renewal aging management
reviews.

Oversight Structure for Aging Active Component Activities Is Not
Focused or Coordinated

NRC’s approach for oversight of licensees’ management of active
component aging is not focused or coordinated. This approach includes
staff-initiated projects and inspection activities using regulations to cite
licensees for age-related degradation of active components that are not
specific to aging. This challenge is compounded by agency senior
managers who are not aware of these uncoordinated activities.

Staff-Initiated Projects

NRC program offices in headquarters and the regions have undertaken
staff-initiated projects to evaluate age-related active component failures.
Specifically, the staff-initiated projects have been for data collection,
analysis, and inspection.

Independent of any specific management direction, NRC staff have
initiated efforts to obtain data for addressing the subject of aging active


                               5
                                                         Audit of NRC’s Oversight of Active Component Aging


                   components because operating experience data is not routinely evaluated
                   for information pertaining to the aging of active components. In 2012,
                   NRR’s Operating Experience Branch (IOEB) published the IOEB
                   Component Aging Study 2007-2011 — Insights from Inspection Findings
                   and Reportable Events, July 24, 2012 (IOEB Study). 4 The IOEB Study
                   focused on safety-related and important-to-safety active component
                   failures attributed to age-related degradation. In part, the IOEB Study
                   noted that the number of occurrences involving age-related active
                   component failures has increased since 2009. The IOEB Study concluded
                   that some licensees do not have effective life-cycle preventive
                   maintenance programs for some components where industry and vendor
                   experience has suggested this is necessary. Furthermore, the IOEB
                   Study concluded that NRC oversight programs may not be focused on
                   aging management of active components and these programs could be
                   better prepared to deal effectively with an industry that potentially is
                   experiencing notable occurrences of age-related component failures.

                   The results of the IOEB Study prompted other NRC offices to generate
                   active component age-related projects, again, without top agency
                   management oversight and without any coordination. The Office of
                   Nuclear Regulatory Research reviewed available active component age-
                   related data 5 contained in the Idaho National Laboratory (INL) report,
                   Component Age Traits from EPIX, July 3, 2012. The INL report also
                   evaluated the extent to which age-related active component failures were
                   increasing, but Office of Nuclear Regulatory Research staff could not
                   determine from the INL report if that was the case, due to limitations with
                   the available data.

                   In another active component age-related project, regional office
                   inspection staff familiar with active component aging problems and the
                   IOEB Study conducted what staff described as an inspection to determine
                   if active component aging could be addressed through existing inspection
                   procedures. Accordingly, a Problem Identification and Resolution
                   inspection was scheduled and conducted in November 2012 with the
                   objective of gathering information to determine if a licensee had a periodic,
                   time-based replacement program for aging active components.

4
    This study is publically available; see ADAMS accession number ML13044A469.
5
  These data were originally sourced from the Institute for Nuclear Power Operations Equipment Performance and
Information Exchange database.

                                                        6
                                            Audit of NRC’s Oversight of Active Component Aging


Regulations Used for Citing Licensees for Age-Related Degradation

             Inspectors can use various NRC regulations to cite licensees for age-
             related degradation of active components that are not specific to aging.
             These regulations do not establish limits on the age of active components
             in commercial nuclear power plants, or prohibit degradation of active
             components by aging. Instead, NRC has regulations that establish
             equipment performance requirements that may not be met by components
             that have degraded due to aging. Inspectors said that they use the
             following regulations for inspections to meet the challenge of identifying
             aging active components and citing licensees for age-related violations:

                   •   10 CFR 50.65, Requirements for monitoring the effectiveness of
                       maintenance at nuclear power plants (the Maintenance Rule).
                   •   10 CFR Part 50, Appendix B, Quality Assurance Criteria for
                       Nuclear Power Plants and Fuel Reprocessing Plants.
                   •   10 CFR 50.36, Technical specifications.

             The Maintenance Rule

             NRC inspectors’ experience with citing licensees for violations of the
             Maintenance Rule for age-related active component failures varies
             because—as NRR and regional inspection staff explained—the
             Maintenance Rule is not well understood by less experienced NRC staff.
             Furthermore, NRR and regional staff said that there are not enough NRC
             staff with Maintenance Rule experience who can use it to cite licensees for
             age-related failures within the performance-based ROP framework. NRC
             management and staff also conveyed that an experienced inspector may
             cite a licensee for age-related inspection findings and violations under the
             Maintenance Rule Section (a)(3) when the licensee has not taken into
             consideration applicable operating experience, whereas less experienced
             inspectors are less likely to do so. Other NRC staff voiced a similar
             concern regarding a lack of inspectors with experience using the
             Maintenance Rule. OIG noted that inspectors have rarely used the
             Maintenance Rule to cite licensees for failure of safety-related
             components due to aging. Of the 105 age-related active component
             failures and reportable events from 2007 to 2011 identified in the IOEB
             Study, only 3 were cited for violations of the Maintenance Rule. Although
             Maintenance Rule violations do include some findings attributed to aging,


                                           7
                                         Audit of NRC’s Oversight of Active Component Aging


           most Maintenance Rule violations do not include end of life aging as
           defined by the IOEB Study.

           The following table provides additional details relating to the three
           Maintenance Rule violations noted above. In each case, the licensee left
           active components in service until they failed through shortcomings in
           preventive maintenance activities.



          Figure 1: Three NRC Maintenance Rule Citations, 2007-2011

Date       Plant         Type of Age-Related Failure               Cause

2011       Waterford     Electronic control components for         Aging. The
                         cooling towers failed after operating     maintenance to
                         for 25 years.                             replace the
                                                                   components was
                                                                   deleted from
                                                                   preventive
                                                                   maintenance
                                                                   activities.

2009       Catawba       Auxiliary feed water sump valves          Aging. No
                         important to plant safety failed.         maintenance was
                                                                   performed on the
                                                                   valves since plant
                                                                   startup in 1985.

2007       Brunswick     A relay for controlling an emergency      Aging. The relay’s
                         diesel generator failed.                  coil failed due to the
                                                                   deferral of
                                                                   maintenance.

Source: IOEB Study

           According to agency staff, the ROP’s emphasis on performance-based
           and risk-informed oversight limits their ability to evaluate licensee
           preventive maintenance programs. This limitation exists because NRC
           does not perform programmatic inspections of licensees’ preventive
           maintenance programs. For example, a regional senior management


                                        8
                              Audit of NRC’s Oversight of Active Component Aging


official described how there were aging problems found at Fort Calhoun by
the inspectors during additional inspections after a flood, but routine ROP
inspections are not structured to focus inspection resources on active
component age-related issues. Another regional senior management
official confirmed that the ROP does not have provisions to look at a
licensee’s preventive maintenance programs, but focuses on performance
and evaluates licensee response to failures after the fact—that is, after a
component failure—and how the licensee addresses the cause of the
failure as part of its Corrective Action Program.

Several NRC staff with inspection experience stated that the Maintenance
Rule as currently in use is not structured to address aging active
components.

Other Regulations Used for Citing Licensees for Age-Related Failures

Inspectors are likely to use other regulatory provisions—specifically,
10 CFR Part 50, Appendix B, and plant technical specifications—for citing
licensees for age-related failures because findings can be supported and
justified more readily than by using the Maintenance Rule. According to
NRC staff, using 10 CFR Part 50, Appendix B, provisions to cite licensees
for quality assurance shortcomings related to component design,
fabrication, construction, operation, and testing is easier than using the
Maintenance Rule. Similarly, NRC inspectors have cited licensees for
violating plant technical specifications, specifically for lacking adequate
justification for running active components beyond vendor recommended
life and not having appropriate maintenance procedures in place.
However, 10 CFR Part 50, Appendix B, and 10 CFR 50.36, Technical
specifications, do not contain age-related criteria for supporting age-
related findings.

Management Not Always Cognizant of Active Aging Component Activities

Agency managers are not always cognizant of the staff’s activities related
to active component aging. NRR senior managers were not aware of the
status of staff implementation of the IOEB Study conclusions and
recommendations. Although senior managers indicated that NRC has
robust programs in place that address active component aging and that
staff were following up on the IOEB Study conclusions and
recommendations, neither was the case during the course of the audit.

                              9
                                                        Audit of NRC’s Oversight of Active Component Aging


                 Staff indicated that the agency is taking action to follow up on the results
                 of the aging component study, but the agency’s plan for considering and
                 implementing the IOEB Study conclusions and recommendations is
                 unclear.

                 Although the IOEB Study was peer-reviewed and issued internally via
                 OpE COMM 6 in June 2012 and presented to an ROP enhancement group
                 in March 2013, a number of senior managers and program office and
                 regional staff having active component aging responsibilities were
                 unfamiliar with the status of staff implementation of the IOEB Study
                 conclusions and recommendations. One NRR senior manager indicated
                 that the IOEB Study was an important effort and thought that agency staff
                 were following up on the study’s conclusions and recommendations.
                 However, the NRR senior manager’s direct report and regional senior
                 managers that the NRR senior manager identified as familiar with the
                 IOEB Study were not aware of the details of the study or proposed
                 followup actions.

                 NRR senior management also indicated that regional office management
                 officials would provide insight on aging active component efforts and
                 follow up on the IOEB Study conclusions and recommendations.
                 However, of the two regional management officials to whom NRC staff
                 had provided copies of the report, one noted that the IOEB Study was for
                 informational purposes only and did not require action. Furthermore,
                 neither was aware of the details of the IOEB Study and therefore was not
                 able to offer insight on aging active component efforts and staff followup
                 on the IOEB Study conclusions and recommendations.

                 Furthermore, agency managers and staff have conflicting understandings
                 of and did not coordinate how a biennial ROP enhancement effort 7 may
                 incorporate changes to active component aging oversight. Specifically,
                 senior managers indicated that IOEB Study conclusions and

6
  OpE COMMs (Operating Experience Communications) contain preliminary information in the interest of timely
internal communication of operating experience. OpE COMMs may be predecisional and may contain sensitive
information. They are not intended for distribution outside the agency.
7
  The biennial ROP review allows NRC to evaluate licensee performance on a regular, recurring basis. In 2013, NRC
undertook to enhance the review by taking additional measures as part of the review. During the review, named ROP
Enhancement—Baseline Inspection Program, champions and key staff will make changes to the inspection
procedures based on analysis completed by the inspection procedure owners, information and knowledge from
inspectors, special groups and reports, lessons learned, and recent events and inspections.

                                                      10
                                                         Audit of NRC’s Oversight of Active Component Aging


                 recommendations will likely be included in the 2013 ROP enhancement
                 effort. However, a key NRR staff member involved with the review said
                 that ROP enhancement will not include active component aging because
                 the Maintenance Rule, in the staff’s opinion, already addresses active
                 component aging. Yet staff in the IOEB stated that, as far as they were
                 aware, there had been no official coordination between the operating
                 experience and the inspection branches for including active component
                 aging oversight. Nonetheless, NRC staff were unable to provide any
                 specific documentation of the agency’s plan for including the IOEB Study
                 conclusions and recommendations in the ROP enhancement effort.
                 Consequently, OIG could not independently confirm the extent to which
                 the subject of active component aging is being considered for inclusion in
                 the review.


                 NRC Has Not Evaluated or Analyzed the Need for a Formal Program
                 and Has Not Systematically and Continually Collected or Evaluated
                 Active Component Age-Related Data

                 The unfocused and uncoordinated approach NRC uses in its oversight of
                 licensees’ active aging component activities is occurring because NRC:

                 •    Has not conducted a systematic evaluation of program needs for
                      overseeing licensees’ aging management for active components.

                 •    Does not have mechanisms for systematic and continual monitoring,
                      collecting, and trending of age-related data for active components.

                 NRC Has Not Conducted a Systematic Program Needs Evaluation and
                 Analysis

                 Since the ROP was initiated in 2000, NRC has not conducted an
                 evaluation and analysis that would systematically determine whether the
                 need exists for a formal active aging component oversight program. NRC
                 has not systematically evaluated the need for specific program policies,
                 goals, and objectives, and the need for program feedback and corrective
                 actions for continual improvement, all within the context of the current
                 ROP environment. 8 The most recent evaluation of the agency’s regulatory

8
 This is not to suggest that NRC inspection procedures have remained static over the years. For example, according
to agency staff, Inspection Procedure 71111.21, Component Design Bases Inspection, was updated in August 2012

                                                       11
                                                       Audit of NRC’s Oversight of Active Component Aging


                 oversight of active component aging was in 1996 9—which pre-dates the
                 ROP—and stressed the importance of aging studies as an important part
                 of efforts to identify and solve potential aging problems.

                 In addition, nuclear plants have aged almost 20 years since the most
                 recent evaluation of the agency’s regulatory oversight of active component
                 aging in 1996. The report that resulted from this evaluation asserted that,

                                  …active components generally do not
                                  present a significant aging problem in
                                  nuclear power plants. Design criteria and
                                  effective preventative maintenance
                                  programs, including timely replacement of
                                  components, are effective in mitigating
                                  potential aging problems… .

                 However, NRC does not inspect preventive maintenance programs
                 directly and comprehensively to ensure they are effective. Aging can
                 cause active component degradation and failure resulting in unexpected
                 reactor power changes, failures of components to perform their safety
                 function, and adverse effects to the safety margin. For example:

                     •   OIG identified an unexpected reactor power change and automatic
                         reactor shutdown that occurred at a commercial power reactor in
                         2012. The shutdown was due to a failed switch which had been in
                         service over 40 years with no preventive maintenance performed.

                     •   The IOEB Study reported an incident from 2010 whereby a relay
                         failed after not being replaced or monitored at the required
                         periodicity, resulting in the failure of an emergency diesel generator
                         to provide power to safety systems when it was called upon to do
                         so during a partial loss of electrical power at the plant.




to include the statement “…inspectors should try to determine through review of these corrective work
maintenance activities whether licensee’s preventive maintenance or other programs such as aging management
are being reasonably effective in preventing component failures.” OIG’s wider point is that activities—such as
inspection procedure changes—have been undertaken without the benefit of a systematic program needs
evaluation and analysis.
9
 NUREG/CR-6442, Evidence of Aging Effects on Certain Safety-Related Components, NRC and Idaho National
Laboratories, 1996.

                                                      12
                               Audit of NRC’s Oversight of Active Component Aging


   •   The IOEB Study also reported that in 2010, an age-related failure of
       a pressure switch caused an unexpected reactor power change
       and automatic reactor shutdown. This pressure switch had been
       installed for 39 years.

Other active component aging studies conducted both in the United States
and internationally offer examples of qualitative and quantitative data
related to active component failures. In general, these studies all
emphasize the importance of having a continual awareness of potential
aging problems.

NRC Has Not Systematically and Continually Collected or Evaluated
Active Component Age-Related Data

NRC has not developed and incorporated within policy and guidance the
existing mechanisms used for systematic and continual monitoring,
collecting, and trending of age-related data for active components.
Age-related studies have emphasized the importance of continual
monitoring, collecting, and trending of age-related data for active
components in an ever changing environment. Yet, NRC has not
systematically and continually collected or evaluated age-related data to
determine if a specific oversight program is needed or what type of
program would be necessary. Currently, NRC may identify data on active
component aging intermittently during ROP inspections, but not through
any methods of systematic data collection, analysis, and trending.
Although the IOEB Study and the INL report identified age-related data
from existing reports and evaluated it based on types of failure and
age-related causes, discussions with NRC staff revealed that at present,
age-related failures are not consistently identified in existing reporting
mechanisms, when they are identified at all. An experienced NRR staff
member told OIG that there could be a rise in the number of identified
age-related events if the proper regulatory tools were in place to identify
them.

NRC Cannot Be Fully Assured of Effective Oversight

Despite management’s belief that active component aging issues are
being satisfactorily addressed, NRC is not in a position to draw any
conclusions one way or the other. If NRC’s unfocused and uncoordinated
approach for oversight of licensees’ active component aging activities

                             13
                               Audit of NRC’s Oversight of Active Component Aging


continues, NRC will not be fully assured that it is effectively overseeing
licensees’ aging active component programs. Specifically, the agency will
not be a position to:

       •   Identify and evaluate trends that have safety implications.

       •   Proactively identify active components subject to age-related
           failure before they are run to failure.

       •   Provide complete inspector training and guidance.

       •   Close the performance gap between experienced inspectors
           who know how to identify active components that are run
           beyond their reasonably expected service lives and less
           experienced inspectors who must evaluate active component
           failures where age degradation may have been a significant
           factor.

Conclusions

NRC’s unfocused and uncoordinated approach for oversight of active
aging component activities is characterized by staff-initiated projects and
inspection activities, and incognizant managers. Without direction from
senior management, staff are conducting work to heighten awareness of
active component aging and senior management is not aware of various
active component aging oversight activities that are underway.

Despite concerns of component aging in nuclear power plants that are
growing older, the agency does not routinely collect and monitor instances
of active component failures due to aging. Indeed, the very act of
inspecting for these aging effects before failures occur appears to be
difficult for the agency to undertake under ROP. This failure to routinely
collect and monitor such data runs counter to the need to do so for the
agency to maintain and adjust its approach to active component aging
oversight.




                              14
                              Audit of NRC’s Oversight of Active Component Aging


Recommendations

OIG recommends that the Executive Director for Operations:

   1. Perform and document a thorough and systematic evaluation of the
      need for an NRC program to oversee the management of active
      component aging activities, all within the context of the current ROP
      environment. Evaluation elements are to include, but should not be
      limited to, the need for:

      (a)    Program policies, goals, and objectives.

      (b)    Program feedback and corrective actions for continual
             improvement.

   2. Develop and incorporate the mechanisms for monitoring, collecting,
      and trending age-related data for active components within NRC
      policy and procedures.




                             15
                                           Audit of NRC’s Oversight of Active Component Aging


IV.   AGENCY COMMENTS

      On July 22, 2013, OIG issued the discussion draft of this report to the Executive
      Director for Operations. OIG met with NRC management and staff on August 20,
      2013, at an exit conference and on August 26, 2013 at a staff meeting to discuss
      the draft report content. At these meetings, the agency provided informal
      comments, which OIG subsequently incorporated into the draft report as
      appropriate.

      On September 27, 2013, NRC provided formal comments to the draft report that
      indicated their disagreement with the audit report content. The agency’s formal
      comments state, in part, that NRC disagrees that it needs to perform a thorough
      and systematic evaluation to determine the need for a specific NRC program to
      oversee the management of active component aging activities, because the ROP
      performs this task by providing a framework for ensuring that both active and
      passive aging issues are addressed. OIG auditors concluded that the agency is
      not in a position to determine the effectiveness of active component aging
      oversight. This is because the agency uses regulations and inspection
      procedures for oversight of active component aging that were established prior to
      the implementation of ROP in 2000 and has not, since ROP implementation,
      evaluated whether those regulations and inspection procedures work the same
      way as intended in the pre-ROP regulatory environment.

      Appendix A contains the audit Objective, Scope and Methodology; Appendix B
      contains a copy of the agency’s formal comments; and Appendix C contains
      OIG’s analysis of the agency’s formal comments.




                                          16
                                       Audit of NRC’s Oversight of Active Component Aging


                                                                             APPENDIX A

OBJECTIVE, SCOPE, AND METHODOLOGY



    OBJECTIVE

        The audit objective was to determine if NRC is providing effective
        oversight of industry’s aging component programs.

    SCOPE

        We conducted this performance audit at NRC headquarters in Rockville,
        MD, and collected information from the regional offices via telephone and
        in conjunction with the Audit of NRC’s Support for Resident Inspectors,
        from October 2012 through May 2013. The audit scope was limited to
        NRC’s regulatory responsibilities as they pertain to aging active
        component programs at commercial nuclear power plants. Internal
        controls related to the audit objectives were reviewed and analyzed.

    METHODOLOGY

        To address the audit objective, OIG interviewed agency senior
        management officials, and headquarters and regional staff. OIG also
        reviewed NRC regulations and guidance, as well as domestic and
        international operational experience reports pertaining to active aging
        components. OIG subsequently compared the information provided
        during the interviews with staff actions. Throughout the audit, auditors
        were aware of the possibility or existence of fraud, waste, or misuse in the
        program. Some of the key documents referred to in this report include the
        following:

            Regulations:

            •   10 CFR Part 50.65, Requirements for monitoring the effectiveness
                of maintenance at nuclear power plants.
            •   10 CFR Part 50, Appendix B, Quality Assurance Criteria for Nuclear
                Power Plants and Fuel Reprocessing Plants.
            •   10 CFR Part 50.36, Technical specifications.

                                      17
                                           Audit of NRC’s Oversight of Active Component Aging


Inspection Procedures:


                •   Inspection Procedure 71111.21, Component Design Bases
                    Inspection.
                •   Inspection Procedure 71152, Problem Identification and Resolution.

                Operating Experience Reports:

                •   IOEB Component Aging Study (2007-2011) – Insights from
                    Inspection Findings and Reportable Events, July 24, 2012.
                •   IOEB Analysis Team Study on Recent Operating Experience
                    Ineffective Use of Vendor Technical Recommendations, June 6,
                    2011.
                •   Idaho National Laboratories, Component Age Traits from EPIX,
                    July 3, 2012.
                •   International Atomic Energy Agency Safety Report Series, No. 62,
                    Proactive Management of Ageing for Nuclear Power Plants, 2009.
                •   European Commission Joint Research Center, Ageing Related
                    Events Topical Study, 2011.
                •   NRC and Idaho National Laboratories, Evidence of Aging Effects
                    on Certain Safety-Related Components, NUREG/CR-6442, 1996.

            We conducted this performance audit in accordance with generally
            accepted government auditing standards. Those standards require that
            we plan and perform the audit to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our
            audit objectives. We believe that the evidence obtained provides a
            reasonable basis for our findings and conclusions based on our audit
            objectives.

            Contributors to this report were R.K. Wild, Team Leader; Kevin Nietmann,
            Senior Technical Advisor; Vicki Foster, Audit Manager; Timothy Wilson,
            Senior Management Analyst; Larry Weglicki, Senior Auditor; Jenny
            Cheung, Auditor; and Tariq Noaman, Management Analyst.




                                         18
                         Audit of NRC’s Oversight of Active Component Aging


                                                               APPENDIX B

AGENCY FORMAL COMMENTS




                         19
Audit of NRC’s Oversight of Active Component Aging




20
Audit of NRC’s Oversight of Active Component Aging




21
                                         Audit of NRC’s Oversight of Active Component Aging


                                                                                APPENDIX C

OIG ANALYSIS OF AGENCY FORMAL COMMENTS


        On July 22, 2013, OIG issued the discussion draft of this report to the Executive
        Director for Operations. OIG met with NRC management and staff on August 20,
        2013, at an exit conference and on August 26, 2013, at a staff meeting to discuss
        the draft report content. At these meetings, the agency provided informal
        comments, which OIG subsequently incorporated into the draft report as
        appropriate. On September 27, 2013, NRC provided formal comments to the
        draft report that indicated their disagreement with the audit report contents.
        OIG’s analysis of those comments is as follows:

        OIG maintains that NRC needs to improve the unfocused and uncoordinated
        approach management officials use for oversight of licensees’ management of
        active component aging. The comments that the agency provided reflect an
        overall misunderstanding and misinterpretation of the report content.

        OIG has assigned a reference number to each of the agency’s comments to aid
        the following point-by-point analysis:

               Agency Comment 1:

        “NRC disagrees with the major premise of this audit, which is that the NRC
        oversight of active component aging is not being effectively dealt with under
        existing oversight programs.”

                       OIG Response to Agency Comment 1:

        The agency misunderstands and has misinterpreted the audit’s major premise.
        The major premise of this report is not that oversight of active component aging
        is not being effectively dealt with under existing oversight programs. The
        message is that OIG could not determine the extent to which NRC provides
        effective oversight due to a lack of agency analysis that tests its assumptions
        regarding active component aging. OIG concluded that this has occurred
        because NRC has not conducted a systematic evaluation of program needs for
        overseeing licensees’ aging management for active components since the
        establishment of ROP in 2000, and does not have mechanisms for continual
        monitoring and trending of age-related data for active components.
        Consequently, NRC cannot be fully assured that it is effectively overseeing
        licensees’ management of aging active components.



                                        22
                                                       Audit of NRC’s Oversight of Active Component Aging


                         Agency Comment 2:

                “Nearly all of the active component aging data contained within the Office of
                Nuclear Reactor Regulation (NRR) Operating Experience Branch (IOEB) Aging
                Study was derived from inspection findings in which NRC inspectors effectively
                documented active component aging issues and cited associated violations of
                the regulations.”

                                 OIG Response to Agency Comment 2:

                NRC’s statement that nearly all of the active component aging data contained
                within the Office of Nuclear Reactor Regulation IOEB Component Aging Study
                2007-2011 — Insights from Inspection Findings and Reportable Events, July 24,
                2012 (IOEB Study) was derived from inspection findings in which NRC inspectors
                effectively documented active component aging issues and cited associated
                violations of the regulations is not correct.

                OIG analysis of the inspection and event reports from which the IOEB Study data
                was derived indicates that about one quarter of the failures identified in the report
                were not derived from inspection reports. Rather, these failures were provided
                by licensees to NRC in licensee event reports. Moreover, almost all of the
                regulatory non-compliances are non-cited violations. The agency’s claim that
                almost all of the 105 events were cited violations derived from inspection activity
                is inaccurate. In fact, more than half of the events in the report did not result in
                violations of any kind.

                Prior OIG analysis 10 indicates that for every safety-related component failure that
                occurs and is reported, there are several that occur but do not meet the level of
                reportability using 10 CFR Part 50.72, Immediate Notification Requirements for
                Operating Nuclear Power Plants and 10 CFR 50.73, Licensee Event Report
                System reporting criteria, indicating that there may be many more safety-related
                components that have degraded or failed due to aging that have not been
                reported to NRC.




10
  Audit of NRC's Implementation of 10 CFR Part 21, Reporting of Defects and Noncompliance, OIG-11-A-08, March
23, 2011.

                                                     23
                                  Audit of NRC’s Oversight of Active Component Aging


       Agency Comment 3:

“The staff also does not agree that its activities for managing active component
aging are not focused or coordinated. While we agree that there is no one
section of the regulations or oversight programs that specifically deals with active
component aging, and while there is always room for improvement, active
component aging issues are effectively addressed through various aspects of the
regulations and oversight programs. For example, the staff relies on Title 10 of
the Code of Federal Regulations (10 CFR) Part 50, “Domestic Licensing of
Production and Utilization Facilities,” Appendix B, “Quality Assurance Criteria for
Nuclear Power Plants and Fuel Reprocessing Plants,” (Criteria III, V, XI, and
XVI), technical specifications, and the Maintenance Rule, all of which deal with
component degradation and age related performance issues.”

               OIG Response to Agency Comment 3:

OIG did not conclude that regulations were unfocused and uncoordinated or that
active component aging issues are not effectively addressed through various
aspects of the regulations and oversight programs. Rather, OIG concluded that
NRC’s approach for oversight of licensees’ management of active component
aging is not focused or coordinated because NRC’s approach includes staff-
initiated projects, using inspections that are not aging-related, and agency senior
managers who are not aware of these uncoordinated activities.

Furthermore, NRC asserted that active component aging issues are effectively
addressed through various aspects of the regulations and oversight programs.
For the sake of clarity, OIG did not indicate anywhere in the report that the use of
the regulations was ineffective. OIG even stated in the report that inspectors
have used those regulations to support a basis for age-related inspection
findings. However, with regard to effectiveness, OIG stated in the report that it
could not determine the extent to which NRC provides effective oversight due to
a lack of agency analysis that tests its assumptions regarding active component
aging.

       Agency Comment 4:

“Licensee performance is assessed against these regulations under the Reactor
Oversight Process (ROP), which allows inspectors and NRC managers to ensure
regulatory compliance. The NRC deals with issues identified under the ROP in a
performance based and risk informed manner. Furthermore, the NRC has ample
regulations that require licensees to report performance issues that may be
caused by active component aging. These include the reporting requirements of
10 CFR 50.72, “Immediate Notification Requirements for Operating Nuclear
Power Plants,” and 10 CFR 50.73, “Licensee Event Report System.”

                                 24
                                   Audit of NRC’s Oversight of Active Component Aging


               OIG Response to Agency Comment 4:

The agency states that NRC has ample regulations that require licensees to
report performance issues that may be caused by active component aging.
However, OIG did not conclude that regulations or reporting methods were
inadequate. OIG did note that NRC was not in a position to determine whether
or not oversight of active aging components was effective because NRC had not
collected and evaluated the requisite data to determine the need for further
action regarding active component aging. In such a scenario, it would be
inappropriate for OIG, NRC, or anybody else to conclude one way or the other
whether the regulations or reporting methods were adequate.

       Agency Comment 5:

“When this information is combined with ROP inspection results and industry
component failure databases—all of which are routinely assessed by the staff—
they provide ample visibility for the staff to collect and evaluate age related data
for active components. The staff does not believe that additional programs that
involve monitoring, collecting, and trending of active component aging are
necessary to identify adverse trends or to take appropriate regulatory action.”

               OIG Response to Agency Comment 5:

NRC states that the staff does not believe that additional programs that involve
monitoring, collecting, and trending of active component aging are necessary to
identify adverse trends or to take appropriate regulatory action. OIG recognizes
that NRC collects a great deal of industry operating experience. However, the
agency does not collect or evaluate it for aging active component degradation or
failures. Given the evidence reviewed in this audit, OIG concluded that NRC
should establish a factual basis for its belief that no additional programs for the
monitoring, collecting, and trending of active component aging data are
necessary.

       Agency Comment 6:

“The staff also disagrees that it needs to perform a thorough and systematic
evaluation to determine the need for a specific NRC program to oversee the
management of active component aging activities. The ROP performs this task
by providing a framework for ensuring that both active and passive aging issues
with the potential to impact safety are addressed in a timely manner. The NRC
has processes in place to systematically evaluate the results of the ROP, along
with other data sources, and these processes provide adequate assurance that
the NRC will identify safety-significant, age-related failures of active
components.”


                                 25
                                             Audit of NRC’s Oversight of Active Component Aging


OIG Response to Agency Comment 6:

            As noted in the report, the agency is not in a position to determine the
            effectiveness of active aging oversight because they have not done the
            necessary evaluation to conclude whether or not an active component aging
            oversight program is needed. OIG asked for, and the agency did not provide,
            evidence that it already performs a systematic evaluation that proves specifically
            how ROP and the other processes adequately address active component aging.

            Furthermore, for ROP and the other processes that NRC asserts adequately
            address active component aging, the agency does not evaluate program results
            to determine if active component aging degradation and failures are acceptable
            or not. A recent example—whereby inspectors found numerous active
            component age-related issues during additional inspections in response to
            failures at the Fort Calhoun Nuclear Power Plant after notable performance
            deficiencies occurred—suggests the need to evaluate all of those regulations and
            processes that NRC claims have been effective in the oversight of active
            component aging.

                   Agency Comment 7:

            “Furthermore, the staff believes that no additional mechanisms are needed to
            monitor, collect, and trend age-related data on active component aging. The
            staff already collects or has access to operating experience data gathered from
            reportable events, international events, industry failure data, and inspection
            findings that are routinely screened for significance and trending and analysis.
            The creation of additional mechanisms to perform these tasks is not necessary.”

                          OIG Response to Agency Comment 7:

            The staff believes that no additional mechanisms are needed to monitor, collect,
            and trend age-related data on active component aging because the staff already
            collects or has access to operating experience data. In fact, OIG found that the
            staff does collect data, but the data is not analyzed to identify or trend active
            component degradation/failures. Furthermore, OIG notes that existing operating
            experience data gathered from reportable events, international events, industry
            failure data, and inspection findings are routinely screened for significance and
            trending and analysis but not for active component degradation and failure due to
            aging. NRC does not collect active aging data using “active component aging”
            as a specific, discrete subcategory, although the infrastructure is in place to do
            so. According to an industry organization representative’s presentation during
            the 2013 NRC Regulatory Information Conference, the system NRC uses to
            obtain age-related data could be programmed to include aging as a cause code
            field that can be selected for age-related data collection purposes. Furthermore,

                                            26
                                  Audit of NRC’s Oversight of Active Component Aging


an NRR senior manager said that he would communicate with an industry
contact to obtain NRC access to additional operating experience data.

OIG determined that NRC has not developed or incorporated within policy and
guidance the mechanisms for continually monitoring, collecting, and trending
age-related data for active components. These mechanisms could be the
existing infrastructure for collecting and evaluating operating experience data or
new mechanisms at NRC’s discretion.

OIG made changes to this report to clarify that NRC has not systematically and
continually collected or evaluated active component age-related data using
existing mechanisms.

       Agency Comment 8:

“There are valid reasons why inspectors cite different requirements to document
findings involving age-related issues. These may include variability in the
identified performance deficiencies, event causes, and plant licensing bases.
Reasons for the variability in citing different requirements were not explored in
the report.”

               OIG Response to Agency Comment 8:

OIG described how inspectors cite licensees against regulations to address
aging active component failures and did not challenge the use of multiple
regulations to cite licensees. OIG did not state that the reasons why inspectors
cite different requirements to document findings involving age–related issues was
invalid or question the variability in citing different requirements. OIG does call
into question, however, the variability in use of any of the regulatory or inspection
tools that is due to unfamiliarity or lack of inspector experience as described in
this report with regard to a lack of understanding of the Maintenance Rule for
purposes of inspecting for active component aging phenomena. That such
variability exists for these reasons and that NRC managers are unaware of this
variability is a central message of the OIG report.

       Agency Comment 9:

“The staff is actively considering recommendations identified in the IOEB Study
for improving inspector awareness of aging issues and clarifying inspection
procedure guidance as part of the ongoing ROP Enhancement Project.”

               OIG Response to Agency Comment 9:

The IOEB Study was completed in July 2012 and was presented to NRR
management in November 2012. In March 2013, NRC staff provided OIG with


                                 27
                                  Audit of NRC’s Oversight of Active Component Aging


conflicting information regarding inclusion of the aging study as part of the ROP
Enhancement Project, which was documented in the audit report. OIG continues
to note that NRC is actively considering the IOEB Study recommendations;
however, the agency has not been clear as to what, exactly, comprises that
consideration.

       Agency Comment 10:

“The IOEB study represented a new approach for performing analysis of ROP
data. While the program has experience with the communication and
implementation of recommendations for specific technical issues, the structure
for implementing the kind of broad recommendations that were presented in this
study, and which require coordination across multiple offices, is being refined as
the recommendations are being implemented, presenting learning opportunities
and challenges for their completion.”

               OIG Response to Agency Comment 10:

The agency states that it is in the process of implementing the IOEB Study
recommendations. However, OIG notes that this comment is inconsistent with
Agency Comment 9 above that states the IOEB Study is being considered as
part of the ROP Enhancement Project. Based on these formal comments, it is
not clear whether the agency is considering or implementing the
recommendations. The agency has been rather opaque in its responses to OIG
auditor inquiries as to what recommendations, specifically, are under
consideration or being implemented.

       Agency Comment 11:

“The NRC staff points to the overall capability of the ROP (including the structure
of the Significance Determination Process) and current reporting requirements as
substantive evidence that there is adequate assurance that it is addressing active
component aging issues impacting safety.”

               OIG Response to Agency Comment 11:

The agency did not provide substantive evidence of adequate assurance that it is
addressing active component aging issues impacting safety. In fact, the agency
provided no evidence and believes that active component issues are addressed
through ROP. OIG could not therefore determine the extent to which NRC
provides effective oversight due to a lack of agency analysis that tests its
assumptions regarding active component aging.

Furthermore, OIG did not state that there was inadequate assurance that ROP
and current reporting requirements were addressing active component aging

                                28
                                Audit of NRC’s Oversight of Active Component Aging


issues impacting safety. OIG noted that a systematic evaluation of program
needs for overseeing licensees’ aging management for active components has
not been conducted since the establishment of ROP in 2000. Additionally, NRC
does not trend active component aging degradation and failures that could
provide evidence of adequate assurance that it is addressing active component
aging issues impacting safety. Consequently, NRC cannot be fully assured that
it is effectively overseeing licensees’ management of aging active components.




                               29
